   DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                         Washington, D.C. 20201




January 24, 2011

TO:            Yolanda J. Butler, Ph.D.
               Acting Director
               Office of Community Services
               Administration for Children and Families


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       Results of Limited Scope Review at Instituto Socio-Económico Comunitario, Inc.
               (A-02-10-02015)


The attached final report provides the results of our limited scope review at Instituto Socio-
Económico Comunitario, Inc.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact me at
(202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. We look forward to receiving
your final management decision within 6 months. Please refer to report number A-02-10-02015
in all correspondence.


Attachment
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




   RESULTS OF LIMITED SCOPE
     REVIEW AT INSTITUTO
      SOCIO-ECONÓMICO
      COMUNITARIO, INC.




                      Daniel R. Levinson
                       Inspector General

                        January 2011
                        A-02-10-02015
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Community Services Block Grant (CSBG) program was authorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998, P. L. No.
105-285 (CSBG Act), to provide funds to alleviate the causes and conditions of poverty in
communities. Within the U.S. Department of Health & Human Services, the Administration for
Children and Families (ACF), Office of Community Services administers the CSBG program.
The CSBG program funds a State-administered network of more than 1,000 local Community
Action Agencies (agencies) that create, coordinate, and deliver programs and services to low-
income Americans. The agencies provide services and activities addressing employment,
education, housing, nutrition, emergency services, health, and better use of available income.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received an additional $1 billion for the CSBG program for
states to alleviate the causes and conditions of poverty in communities.

The Puerto Rico Department of the Family (the department) acts as the lead agency for purposes
of carrying out Commonwealth of Puerto Rico activities for the CSBG program. The department
is responsible for approving the Commonwealth’s agencies’ Recovery Act grant applications,
and monitoring them for compliance with program regulations. For fiscal year (FY) 2009, the
department was awarded an additional $42,122,412 in Recovery Act funds for the
Commonwealth’s CSBG program.

Instituto Socio-Económico Comunitario, Inc. (INSEC), a private, non-profit organization,
provides education, employment, health care, economic development, community development,
homeless prevention, housing improvement, emergency assistance programs, and other related
services throughout Puerto Rico. INSEC is one of four community action agencies in Puerto
Rico. For FY 2009, the department awarded INSEC $14,827,089 in additional CSBG Recovery
Act funds.

OBJECTIVE

Our objective was to assess INSEC’s financial viability, capacity to manage and account for
Federal funds, and capability to operate the CSBG program in accordance with Federal
regulations.

SUMMARY OF FINDINGS

Based on our assessment, INSEC has the capacity to manage and account for Federal funds and
to operate a CSBG program in accordance with Federal regulations. However, we were unable
to determine whether INSEC is financially viable because audited financial statements for
calendar years 2006 through 2009 were not available at the time of our review. In addition, we
identified certain weaknesses relating to the adequate safeguarding of Federal funds and written
accounting policies and procedures.

                                                i
RECOMMENDATION

In determining whether INSEC is appropriately managing and accounting for the Recovery Act
and regular CSBG grant funding, we recommend that ACF consider the information presented in
this report in assessing INSEC’s ability to operate the CSBG program in accordance with Federal
regulations.

INSEC COMMENTS

In its written comments on our draft report, INSEC concurred with our findings and indicated
steps that it has taken or plans to take to address our findings. INSEC’s comments are included
in their entirety as the appendix.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              Community Services Block Grant Program ..................................................1
              Puerto Rico Department of the Family ..........................................................1
              Instituto Socio-Económico Comunitario, Inc. ...............................................1
              Requirements for Federal Grantees ...............................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope ..............................................................................................................2
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATION.........................................................................3

          AUDITED FINANCIAL STATEMENTS NOT PREPARED..................................3

          ADEQUATE SAFEGUARDING OF FEDERAL FUNDS ......................................3

          WRITTEN ACCOUNTING POLICIES AND PROCEDURES ...............................4

          RECOMMENDATION .............................................................................................4

          INSTITUTO SOCIO-ECONÓMICO COMUNITARIO, INC., COMMENTS ........4

APPENDIX

          INSTITUTO SOCIO-ECONÓMICO COMUNITARIO, INC., COMMENTS




                                                                    iii
                                            INTRODUCTION

BACKGROUND

Community Services Block Grant

The Community Services Block Grant (CSBG) program was authorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998, P. L. No.
105-285 (the CSBG Act), to provide funds to alleviate the causes and conditions of poverty in
communities. Within the U.S. Department of Health & Human Services, the Administration for
Children and Families (ACF), Office of Community Services administers the CSBG program.
The CSBG program funds a State-administered network of more than 1,000 local Community
Action Agencies 1 (agencies) that create, coordinate, and deliver programs and services to low-
income Americans. These agencies provide services and activities addressing employment,
education, housing, nutrition, emergency services, health, and better use of available income.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received an additional $1 billion for the CSBG program for
States to alleviate the causes and conditions of poverty in communities. CSBG Recovery Act
funds are distributed to agencies using the existing statutory formula.

Puerto Rico Department of the Family

The Puerto Rico Department of the Family (the department) acts as the lead agency for purposes
of carrying out the Commonwealth of Puerto Rico’s activities for the CSBG program. The
department is responsible for approving Commonwealth agencies’ Recovery Act grant
applications, and monitoring the agencies for compliance with program regulations. For fiscal
year (FY) 2009, the department was awarded an additional $42,122,412 in Recovery Act funds
for the Commonwealth’s CSBG program.

Instituto Socio-Económico Comunitario, Inc.

Instituto Socio-Económico Comunitario, Inc. (INSEC), a private, non-profit organization,
provides education, employment, health care, economic development, community development,
homeless prevention, housing improvement, emergency assistance programs, and other related
services throughout Puerto Rico. INSEC is one of four community action agencies in Puerto
Rico. For FY 2009, the department awarded INSEC $14,827,089 in additional CSBG Recovery
Act funds.

Requirements for Federal Grantees

Pursuant to 45 CFR part 74, grantees of Federal awards must implement written accounting
policies and procedures and maintain financial systems that provide for accurate and complete

1
 Community Action Agencies are non-profit private and public organizations established under the Economic
Opportunity Act of 1964 to fight America's War on Poverty.


                                                      1
reporting of grant related financial data, effective control over grant funds, and allocation of
costs to all benefitting programs. Grantees must also establish written procurement procedures.
In addition, pursuant to 45 CFR § 74.27, the allowability of costs incurred by nonprofit
organizations is determined in accordance with the provisions of Office of Management and
Budget Circular A-122, Cost Principles for Nonprofit Organizations. The CSBG Act establishes
the CSBG program and sets the requirements and guidelines for CSBG funds.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess INSEC’s financial viability, capacity to manage and account for
Federal funds, and capability to operate the CSBG program in accordance with Federal
regulations.

Scope

We conducted a limited review of INSEC’s financial viability, financial management system,
and related policies and procedures. Therefore, we did not perform an overall assessment of
INSEC’s internal control structure. Rather, we reviewed only the internal controls that pertained
directly to our objective.

We performed our fieldwork at INSEC’s central offices in San Juan, Puerto Rico, and its
regional office in Caguas, Puerto Rico, during August 2010.

Methodology

To accomplish our objective, we:

            •   confirmed that INSEC is not excluded from receiving Federal funds;

            •   reviewed relevant Federal laws, regulations, and guidance;

            •   reviewed INSEC’s application and implementation of the grant award for the
                Recovery Act funding;

            •   reviewed INSEC’s policies and procedures related to the CSBG program;

            •   reviewed INSEC’s by-laws, minutes from its Board of Director meetings, the
                composition of the board, and organizational chart; and

            •   performed audit steps to assess the adequacy of INSEC’s financial systems.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions

                                                2
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATION

Based on our assessment, INSEC has the capacity to manage and account for Federal funds and
to operate a CSBG program in accordance with Federal regulations. However, we were unable
to determine whether INSEC is financially viable because audited financial statements for
calendar years 2006 through 2009 were not available at the time of our review. In addition, we
identified certain weaknesses relating to the adequate safeguarding of Federal funds and written
accounting policies and procedures.

AUDITED FINANCIAL STATEMENTS NOT PREPARED

Pursuant to the Office of Management and Budget (OMB), Circular A-133, Audits of States,
Local Governments, and Non-Profit Organizations, Subpart C, Federal grantees that expend
$300,000 or more are required to prepare appropriate financial statements, including the schedule
of expenditures of Federal awards and ensure that annual audits required are properly performed
and submitted when due.

For calendar years 2006 through 2009, INSEC did not ensure that OMB Circular A-133 audit
reports were completed and submitted to ACF. Further, no other certified audits of INSEC’s
financial data were performed during this period. Without audited financial statements available,
we were unable to determine whether INSEC is financially viable.

ADEQUATE SAFEGUARDING OF FEDERAL FUNDS

Pursuant to 45 CFR § 74.21(b)(3), grantees must provide effective control over and
accountability of all funds, property, and other assets to adequately safeguard all assets. In
addition, pursuant to 45 CFR § 74.22(i)(2), grantees are required to deposit and maintain
advances of Federal funds in insured accounts whenever possible. Federal Deposit Insurance
Corporation (FDIC) policy states that deposits owned by a corporation, partnership, or
unincorporated association are insured up to $250,000 at a single bank.

INSEC’s CSBG and CSBG Recovery Act bank account balances exceeded the FDIC insured
limit. For example, the closing balances for INSEC’s CSBG and CSBG Recovery Act bank
accounts for the period ending May 2010 were $2,865,100 and $14,302,121, respectively.
INSEC did not have effective internal controls over account balance limits to adequately
safeguard deposits.




                                                3
WRITTEN ACCOUNTING POLICIES AND PROCEDURES

Pursuant to 45 CFR part 74, grantees of Federal awards must implement written accounting
policies and procedures that provide for accurate and complete reporting of grant-related
financial data, effective control over grant funds, and allocation of costs to all benefitting
programs.

INSEC has not updated its accounting system manual since 1993. As a result, the manual does
not include significant changes to INSEC’s accounting procedures related to payroll processing,
accounts payable/receivables, safeguarding of financial data, and automation of the accounting
system.

RECOMMENDATION

In determining whether INSEC is appropriately managing and accounting for the Recovery Act
and regular CSBG grant funding, we recommend that ACF consider the information presented in
this report in assessing INSEC’s ability to operate the CSBG program in accordance with Federal
regulations.

INSTITUTO SOCIO-ECONÓMICO COMUNITARIO, INC., COMMENTS

In its written comments on our draft report, INSEC concurred with our findings and indicated
steps that it has taken or plans to take to address our finding. INSEC’s comments are included in
their entirety as the appendix.




                                                 4
APPENDIX
                                                                                                                       Page 1 0[2


INSTITUTO SOCIO-ECONOMICO COMUNITARIO, INC., COMMENTS 





                                                                                                    J OlANDA VELEZ PEREZ
                                                                                                           EXECU TIVE DIRECTOR



  December 8, 2010



  Mr. James P. Edert
  Regional Inspector General for Audits Services
  Office of Inspector General , Region II
  Jacob Javits Federal Building
  26 Federal Plaza - Room 3900
  New York, NY 10278

  Report Number: A-02-10-02015

  Dear Mr. Edert: 


  Enclosed are our written comments about the draft report entitled of Results of Limited 

  Scope Review at Instituto Socio-Econ6mico Comunitario, Inc., issued on December 6, 

  2010 by Department of Health & Human Services, Office of Inspector General. 


  If you have any questions about these comments, please do not hesitate to call me at 

  787-763-5230, or at insec@insec.org. 


  Sincerely, 


  IMs. Jolanda Velez Perez! 

  Executive Director 

  Instituto Socio-Econ6mico Comunitario, Inc. 


  Enclosure 





          INSTITUTO SOCIO-ECONOMICO COMUNITARIO, INC.
          PO BOX 9066542, SAN JUAN, PUERTO RICO 00906·6542
          TELEPHONES: (787) 763-5230 . 763· 5233 • FAX: (787) 767·8444 . INTERNET: www.inssc.org· Email: inseC@insec.org
                                                                                           Page 2 0[2




                   Comments about the draft report entitled of
 Results of Limited Scope Review at Instituto Socio-Economico Comunitario, Inc.


OIG's Finding : Audited Financial Statements Not Prepared

We concur with the finding . On October 31, 2008 we engaged with a CPA Firm to
perform the Single Audits for the years ended September 30, 2006 and 2007. As of this
date they are still performing tests to revise our answers to their findings because we
did not concur with the methodology used in their review. On August 22 , 2010 we made
a public announcement requesting a Proposal of Professional Services, from qualified
Certified Public Accountants, to perform the Single Audits for the years September 30,
2008, 2009 and 2010. We received several proposals from qualified Certified Public
Accountants. In the following days we will made the final selection of the new company
of Certified Public Accountants who will perform the subsequent Single Audits . We will
be pending that the new company of Certified Public Accountants met the requirement
of the due date, established in the new engagement, to submit to us each Single Audit.

OIG's Finding : Adeguate Safeguarding of Federal Funds

We concur with the finding. Effective October 1, 2010, we enter in a new agreement
with the Administration for Children and Families (ACF) to change to a monthly basis
the request of federal funds. This new agreement will allow us to maintain lower
balances in the bank accounts without interrupting the program services . We want to
highlight that our funds are deposited in a solid Financial Institution in Puerto Rico
(Banco Popula r de Puerto Rico). We are in continuing conversation with CSBG
Program Director of AFC to evaluate additional alternative to allow us to comply with the
requirement to maintain effective control over and accountability of all funds , property,
and other assets to adequately safeguard all assets and to deposit and maintain
advances of Federal funds in insured accou nts whenever possible.

OIG's Finding : Written Accounting Policies and Procedures

We concur with the finding . On October 2010, we already implemented our updated
Accounting Procedures and Performance Manual. Also, the Administration for Children
and Families (ACF) are updating their Manual to be used by all sub recipients of federal
funds administered by ACF. Once we receive the AFC's Manual we will made an
update to include those procedures required by ACF in our Manual.

OIG's Recommendation

We concur with the recommendation .
I Ms. Jolanda Velez, Executive Director INSECt
